No. 20-465

IN THE

Supreme Court of the United States
YOUNG COUNTY, TEXAS; YOUNG COUNTY SHERIFF’S
DEPARTMENT, PETITIONERS,
v.
NICOLE SANCHEZ; CASEY SIMPSON; EDWARD LAROY
SIMPSON, II, INDIVIDUALLY AND AS THE
REPRESENTATIVE OF THE ESTATE OF DIANA LYNN
SIMPSON, RESPONDENTS
ON A PETITION FOR A WRIT CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

BRIEF FOR AMICI CURIAE
NATIONAL INSTITUTE FOR JAIL OPERATIONS,
NATIONAL ASSOCIATION OF POLICE
ORGANIZATIONS, AND WESTERN STATES
SHERIFFS’ ASSOCIATION IN SUPPORT OF
PETITIONERS
G. TODD BUTLER
Counsel of Record
MALLORY K. BLAND
Phelps Dunbar LLP
4270 I-55 North
Jackson, MS 39211-6391
todd.butler@phelps.com
(601) 352-2300
Counsel for Amici Curiae
CURRY & TAYLOR  (202) 350-9073

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES............................................ii
INTEREST OF AMICUS CURIAE............................... 1
SUMMARY OF THE ARGUMENT ............................... 2
ARGUMENT ...................................................................... 3
I.

The Fifth Circuit’s distinction between
episodic acts and omissions and
conditions of confinement claims has
been rejected by this Court................................. 4

II.

The Fifth Circuit further misapplied
the Bell standard by failing to
determine whether the alleged
conditions were reasonably related to
a legitimate governmental interest. .................. 6

III.

The Fifth Circuit’s Opinion effectively
makes the “drunk tank” and similar
holding cells unconstitutional............................ 11

CONCLUSION.................................................................. 14

ii
TABLE OF AUTHORITIES
Page
CASES
BELL V. WOLFISH, 441 U.S. 520 (1979) ................. 4, 7, 8, 9
WILSON V. SEITER, 501 U.S. 294 (1991) .................... 5, 6, 7
BLOCK V. RUTHERFORD, 468 U.S. 576 (1984) ............. 7, 10
BRADICH EX REL. ESTATE OF BRADICH V. CITY
OF CHICAGO, 413 F.3D 688 (7TH CIR. 2005) ................. 11
DUCKWORTH V. FRANZEN, 780 F.2D 645 (7TH
CIR. 1985) .......................................................................... 6
ESTATE OF ALLISON V. WANSLEY, 524 F. APP'X
963 (5TH CIR. 2013) ......................................................... 11
ESTELLE V. GAMBLE, 429 U.S. 97 (1976) ........................... 5
GRAYSON V. PEED, 195 F.3D 692 (4TH CIR. 1999) ..... 11, 13
HARE V. CITY OF CORINTH, 74 F.3d 633 (5th
CIR. 1996) .................................................................. 5, 7, 8, 9
POWELL V. TEXAS, 392 U.S. 514 (1968) ........................... 13
SCHACK V. CITY OF TAYLOR, 177 F. APP'X 469
(6TH CIR. 2006) ............................................................... 11

iii
OTHER AUTHORITIES
Minh Dam, Beats a Night in the Drunk Tank,
HOUSTON CHRONICLE (Mar. 7, 2013, 8:45
p.m.)
https://www.houstonchronicle.com/news/hous
ton-texas/houston/article/Beats-a-night-inthe-drunk-tank-4337907.php. ...................................... 12
Sobriety Center Implementation Report, CITY
OF AUSTIN, TEXAS (April 27, 2015)
http://www.austintexas.gov/edims/document.
cfm?id=230158 ................................................................. 12

1
INTEREST OF AMICI CURIAE
This case involves when a governmental entity
can be held civilly liable for after-effect actions taken by
a pretrial detainee prior to being taken into custody and
outside the knowledge or control of the governmental
entity. Because Amici Curiae represent the interests of
governmental entities, they have a significant interest
in the outcome of this case, as it may be used as
precedent in the future.1
The National Institute for Jail Operations was
formed in 2011 and serves as the primary resource
dedicated to serve those entities that operate jails,
detention facilities, and correctional facilities. NIJO
provides a compilation of legal-based resources,
information, and training for agencies to make facilities
safer and more secure and to protect against adverse
publicity and liability. NIJO’s work focuses on issues
relating to the Eighth Amendment rights and
responsibilities of county and municipal jail operators
and their employees. Thus, NIJO has a special interest
in the Fifth Circuit panel’s decision in this matter
because it substantially implicates the burdens placed
on jail operators to screen, assess, and monitor pretrial
detainees in county jails.
The National Association of Police Organizations
is a nationwide alliance of organizations committed to
advancing the interests of law enforcement officers.
1

Amici provided notice and obtained consent from the parties to
file this amici curiae brief more than 10 days before its filing. No
party or its counsel authored this brief in whole or in part. No
party to this case or their counsel contributed to the cost of
preparing and submitting this brief.

2
Since NAPO’s founding in 1978, it has become the
strongest unified voice supporting law enforcement in
the United States. The organization represents over
1,000 police units and associations and over 241,000
sworn officers mutually dedicated to fair and effective
law enforcement.
The Western States Sheriffs’ Association
(“WSSA”) was formed in 1993 “to allow Sheriffs to
assist each other in fulfilling their duties and
obligations related to law enforcement in their
respective counties.” About the WSSA, available at
https://www.westernsheriffs.org/about/ (last accessed
Jan. 24, 2020). The WSSA is comprised of sheriffs and
their affiliates from 17 Western states, including
Washington, Wyoming, Oregon, Utah, Idaho,
California, Arizona, Nevada, Nebraska, New Mexico,
North Dakota, South Dakota, Colorado, Kansas,
Montana, Texas, and Oklahoma.
This extensive
network allows Western Sheriffs to develop and
maintain relationships with federal and state agencies
to provide effective law-enforcement services in the
“wide open spaces and abundant public land”
characterizing Western America.
SUMMARY OF THE ARGUMENT
This Court should grant the Petition for Writ of
Certiorari for the many reasons discussed in the
Petition itself. This Court should also grant certiorari
review to address the Fifth Circuit’s incomplete
analysis, which failed to address whether there was a
legitimate governmental objective for the complained
of conditions and has virtually outlawed a law

3
enforcement mechanism that has been used all over the
country for decades: the drunk tank.
Claims brought by pretrial detainees attacking
conditions of confinement are analyzed under a wellsettled standard. The primary inquiry is whether the
challenged conditions amount to punishment. Instead
of adhering to this standard, the Fifth Circuit has
become an island on which jail conditions cases are
divided into two distinct claims: true conditions cases
and episodic-acts-and-omissions cases. This distinction
has been rejected by this Court and should be shelved
in the Fifth Circuit.
Instead of inquiring about
punishment, the Fifth Circuit instituted its own opinion
of how jails should handle intoxicated persons. If the
Fifth Circuit had conducted the proper analysis, the
conditions attacked do not rise to the level of a
constitutional violation. The Court should grant
certiorari to correct the errant court of appeals, confirm
the proper analysis for conditions-of-confinement
claims, and reinforce decades of well-settled precedent
on this issue.
ARGUMENT
Pre-trial detainees are entitled to certain
protections under the Fourteenth Amendment. Most
fundamentally, the Government may not deprive a
person of life, liberty, or property without due process
of law.
However, as is well understood, the
Government may hold people accused of a crime in jail
under certain conditions.
But, in doing so, the
Government cannot impose punishment.

4
The Fifth Circuit in this case lost sight of the
proper question: Did the challenged conditions amount
to punishment? Indeed, this is the only inquiry to be
made in analyzing conditions-of-confinement claims. By
failing to make this inquiry, the Fifth Circuit
misapplied this Court’s precedent. And, in so doing, the
Fifth Circuit has elevated local jail standards and mere
negligence to the level of a constitutional violation—a
step long rejected. Moreover, the Fifth Circuit’s
opinion effectively removes an important tool for
dealing with intoxicated persons from the belts of
detention facilities and will make it more difficult and
expensive for jails to operate efficiently and effectively.
Amici will begin by addressing the Fifth
Circuit’s erroneous distinction between two theories of
liability in jail conditions cases. Amici will then discuss
the standard for conditions-of-confinement cases and
how the Fifth Circuit misapplied the standard. Amici
will conclude by highlighting the important policy
consequences of the Fifth Circuit’s decision.
I.

The Fifth Circuit’s distinction between
episodic acts and omissions and conditions
of confinement claims has been rejected by
this Court.

In Bell v. Wolfish, this Court enunciated the
standard for claims by pretrial detainees attacking
conditions of confinement, stating that “the proper
inquiry is whether those conditions amount to
punishment of the detainee.” 441 U.S. 520, 535 (1979).
This Court has consistently applied this standard in
cases attacking conditions faced by pretrial detainees

5
and has refused to separate claims according to the
characterization of the condition.
In contrast, the Fifth Circuit announced in Hare
v. City of Corinth that it applies two different tests to
claims by pretrial detainees depending on the nature of
the claim: whether it was based on general conditions
of pretrial confinement or on a jail official’s episodic acts
or omissions. 74 F.3d at 643. If the claim challenges
general conditions of confinement, the Bell test applies.
But if the claim alleges harm based on episodic acts or
omissions of a jail official, then the Fifth Circuit applies
the deliberate indifference standard articulated in
Estelle v. Gamble, 429 U.S. 97 (1976).
This distinction is not rooted in the Fourteenth
Amendment nor in this Court’s precedent. In fact, it
has been rejected by this Court. In Wilson v. Seiter, it
was argued that such a distinction should be drawn
between short-term or one-time conditions, in which a
state of mind requirement would apply, and continuing
or systemic conditions, in which official state of mind
would be irrelevant. 501 U.S. 294, 300 (1991). But this
Court found that “neither a logical nor a practical basis
for that distinction” existed. Id.
This Court even pondered how such distinctions
would be made. Id. at 301. Would there be a day or
hour requirement to separate the two? Would that day
or hour be the same for all conditions or would it differ
based on the condition? How many occurrences is
enough to make an act a “condition”? Five? Fifteen?

6
Fifty? Attempting to separate the two simply “defies
rational implementation.” Id.
Instead, as will be explained, this Court
reasoned that an intent element is inherent is the
Eighth Amendment’s ban on cruel and unusual
punishment (and, by extension, the Fourteenth
Amendment’s prohibition on punishment period), no
matter if it is an episodic act or a long-term condition.
Id. at 300.2 Thus, this Court reasoned that “[t]he long
duration of a cruel prison condition may make it easier
to establish knowledge and hence some form of intent . .
. ; but there is no logical reason why it should cause the
requirement of intent to evaporate.” Id. at 300-01.
As explained in Wilson, there is no basis in the
Constitution for the Fifth Circuit’s arbitrary distinction
between episodic acts and conditions, and, therefore,
the Fifth Circuit’s distinction should be overruled and
discarded.
II.

The Fifth Circuit further misapplied the Bell
standard by failing to determine whether the
alleged conditions were reasonably related
to a legitimate governmental interest.

As noted, the Fourteenth Amendment protects
pretrial detainees from punishment, and, therefore, the
proper inquiry is whether the condition challenged
2

Quoting Judge Posner, this Court recognized that “[t]he infliction
of punishment is a deliberate act intended to chastise or deter.
This is what the word means today; it is what it meant in the
eighteenth century . . . .” Id. (quoting Duckworth v. Franzen, 780
F.2d 645, 652 (7th Cir. 1985)).

7
amounts to punishment. Accordingly, in Bell, this
Court explained that, “if a particular condition or
restriction of pretrial detention is reasonably related to
a legitimate governmental objective, it does not,
without more, amount to ‘punishment.’” Id. at 539. In
making this determination, a court’s scope is “limited,”
Block v. Rutherford, 468 U.S. 576, 589 (1984), and
detainees shoulder a “heavy burden” to prove such
intent, Bell, 441 U.S. at 562.
“Absent a showing of an expressed intent to
punish on the part of detention facility officials,
that determination generally will turn on
‘whether an alternative purpose to which [the
restriction] may rationally be connected is
assignable for it, and whether it appears
excessive in relation to the alternative purpose
assigned [to it].’”
Hare, 74 F.3d at 651 (Dennis, J., specially concurring)
(emphasis added) (quoting Bell, 441 U.S. at 538). If the
condition is not reasonably related to a legitimate
governmental interest, then it can be inferred that it is
designed to punish. “Courts must be mindful that these
inquiries spring from constitutional requirements and
that judicial answers to them must reflect that fact
rather than a court’s idea of how best to operate a
detention facility.” Bell, 441 U.S. at 539.
“The ‘reasonably related to a valid penological
standard’ never purported to allow recovery for mere
negligence. To the contrary, this test is deferential to
jail rulemaking; it is in essence a rational bases test of
the validity of jail rules.” Id. at 646. “Violation of the

8
Bell test requires acts or omissions not too distant from
a standard of arbitrary and capricious conduct.” Id.
Petitioners persuasively argue that the
deliberate indifference standard should apply to
conditions of confinement claims alleging inadequate
medical care, highlighting a circuit split between the
Fifth Circuit and the First, Third, Sixth, Tenth, and
Eleventh Circuits. Indeed, the Fifth Circuit itself
previously held that “a proper application of Bell’s
reasonable-relationship test is functionally equivalent
to a deliberate indifference inquiry,” Hare, 74 F.3d at
643, but the Fifth Circuit has not applied that standard
in practice.
This Court has explained that “the effective
management of the detention facility . . . is a valid
objective that may justify imposition of conditions and
restrictions of pretrial detention.” And, in determining
“whether restrictions or conditions are reasonably
related to the Government’s interest in . . . operating
the institution in a manageable fashion,” courts must
remember that “[s]uch considerations are peculiarly
within the province and professional expertise of
corrections officials.” Bell, 441 U.S. at 540 & n.23. To
be sure, courts are not to become “enmeshed in the
minutiae of prison operations.” Id. at 544.
“[J]udicial deference is accorded [to prison
administrators] not merely because the
administrator ordinarily will, as a matter of fact
in a particular case, have a better grasp of his
domain than the reviewing judge, but also
because the operation of our correctional

9
facilities is peculiarly the province of the
Legislative and Executive Branches of our
Government, not the Judicial.” Id. at 548.
Instead of determining whether the intent is to
punish, the Fifth Circuit has determined that, if a
condition exists, then courts may presume an intent by
the State or jail officials to subject detainees to the
condition. Hare, 74 F.3d at 644.3 This analysis has all
but done away with the requirement that there be
either an express or implied intent to punish. And, in
doing so, elevated what, at most, could be considered
mere negligence to the level of a constitutional
violation.4
Consider the Panel’s application in this case.
The Fifth Circuit reversed the grant of summary
judgment, finding a fact issue as to the existence of de
3

The Fifth Circuit’s Hare opinion acknowledged Wilson, but
stated Hare’s holding “was consistent with Wilson’s holding that
state of mind is significant in both situations, albeit differently
demonstrated in each.” Id. at 645 n.2. But this is not the case,
since the Fifth Circuit only presumes an intent to impose the
condition, but does not examine the intent behind the imposition of
the condition.
4
Further, the Fifth Circuit’s reliance on the records from
inspections by the Texas Commission for Jail Standards (“TCJS”)
is problematic. The Fifth Circuit’s use of the TCJS standards
overlooks the fact that those standards are not the constitutional
standard. Put simply, proof that a county is engaged in a robust
monitoring effort where deficiencies are measured against a set of
standards is not proof that the county is violating the Constitution.
See Bell, 441 U.S. at 543 n.27 (observing that while
“recommendations of [professional] groups may be instructive in
certain cases, they simply do not establish the constitutional
minima; rather, they establish goals recommended by the
organization in question”).

10
facto policies. However, by doing so, the Fifth Circuit
overlooked the constitutional issue, a purely legal
question: even if such policies existed, were they
intended to punish, i.e. were they arbitrary or
purposeless as opposed to reasonably related to a
legitimate government interest? The answer has to be
no.
What’s more, the Fifth Circuit ignored this
Court’s warnings, going beyond the “limited scope of
judicial inquiry,” and instituted its own opinion as to
how a jail should handle intoxicated individuals. See
Block v. Rutherford, 468 U.S. 576, 589 (1984).
According to the Panel in this case, jails should have
medical staff, should take into account every bit of
outside information given, even to the point of ignoring
information given by the detainee, and should conduct
regular follow-up assessments. See, e.g., App. at 26a.
As noted, in making this assessment, the Fifth
Circuit did not conduct a rationality analysis. If it had
done so, there is no question that the Jail has a
legitimate interest in placing intoxicated individuals
into a holding cell to sober up. Indeed, this has been
done for many, many years in jails all over the country
(and even world). There is no evidence the Jail believed
Simpson was dangerously intoxicated, that she was
attempting to kill herself, or that the Jail stuck her in a
cell to suffer. There is, in fact, no evidence the Jail did
anything other than place her in a cell by herself to
sober up and periodically monitored her—a practice
that has been deemed reasonable by courts all over the
country. See Estate of Allison v. Wansley, 524 F.

11
App’x 963, 972 (5th Cir. 2013); Schack v. City of Taylor,
177 F. App’x 469, 472-73 (6th Cir. 2006) (collecting
cases); Bradich ex rel. Estate of Bradich v. City of
Chicago, 413 F.3d 688, 690 (7th Cir. 2005); Grayson v.
Peed, 195 F.3d 692, 696 (4th Cir. 1999).
If jails can be held liable here—where the
individual has taken all the steps necessary to commit
suicide before coming into contact with law
enforcement, the individual was evaluated by medical
professionals and cleared, the individual denied any
suicidal ideations to jail officials, and the individual was
continuously monitored on a camera in the cell and was
periodically checked on—then what more must a jail do
to escape liability?
Accordingly, there are several reasons why this
Court should grant the Petition for Certiorari: to
resolve the circuit conflict, address the proper
application of the Bell test, decide whether there is any
distinction between episodic acts and omissions, and
determine what part deliberate indifference plays in
the analysis.
III.

The Fifth Circuit’s opinion effectively makes
the “drunk tank” and similar holding cells
unconstitutional.

As previously explained, the Fifth Circuit held
that there was a fact issue as to whether Young
County’s alleged failure to assess caused the
constitutional violation. The failure to assess claim was
divided into two distinct allegations: (1) Young County
had a policy or practice of misclassifying/misplacing
individuals in cells that do not provide maximum visual

12
observations and (2) Young County had a policy or
practice of improperly filling out intake assessment
forms. App. at 21a.
As more fully explained in the Petition for Writ
of Certiorari, the Fifth Circuit failed to take into
account that the actions taken by Simpson to end her
own life were taken before she arrived at the jail. The
Fifth Circuit also failed to take into account that
Simpson was evaluated by medical professionals and
deemed healthy, and Simpson herself repeatedly denied
any suicidal inclinations to police and jail staff.
Further, Simpson was able to speak without slurring
words and walked unassisted. There was no real
reason for the jail staff to believe she was anything
other than intoxicated.
According to one newspaper, in 2013 in Houston
alone, over 19,000 people were arrested for public
intoxication.5 That amounts to over 52 persons per day
being arrested for public intoxication in just one city.6
This is what the Nation’s jails are dealing with.
Detention facilities see and handle all levels of
intoxication. And now, according to the Fifth Circuit,
detention facilities will be required to ensure all
5

Minh Dam, Beats a Night in the Drunk Tank, HOUSTON
CHRONICLE
(Mar.
7,
2013,
8:45
p.m.)
https://www.houstonchronicle.com/news/houstontexas/houston/article/Beats-a-night-in-the-drunk-tank4337907.php.
6
See also Sobriety Center Implementation Report, CITY OF
AUSTIN,
TEXAS
(April
27,
2015)
http://www.austintexas.gov/edims/document.cfm?id=230158
(collecting data on number of public intoxication arrests in Travis
County, Texas).

13
booking forms are completed in their entirety, no
matter the level of intoxication and incoherence of the
answers, will be required to get an independent medical
screening for each intoxicated person, and will be
required to place intoxicated persons in a cell in full
view of a jailer so that they may be watched
continuously and not just on a monitor. If not, the jail
has committed a constitutional violation.
Under the Fifth Circuit’s ruling, there is no
workable solution as to how to handle a person who is
too intoxicated to complete the booking process. They
cannot be let go, as they could go on to hurt themselves
or others.7 Do jailers sit them on a bench in full view of
an officer until the person can complete the booking
process and be placed in a cell? But, that would create
other security problems, so that cannot be the solution.
Or, must jails remodel to make sure there is an open
cell in full view of an officer so they can be watched at
all times? What if the city or county does not have
funding to remodel? And what happens if there is more
than one intoxicated person in the jail at one time?
Would there have to be multiple cells adhering to this
standard? Or, are police officers just supposed to take
each intoxicated individual to the hospital instead of
jail? But again, the Fourth Circuit has said to mandate
this would be a “startling step to take.” Grayson, 195
F.3d at 696. These are only a few of the questions
raised by the Fifth Circuit’s opinion, none of which are
workable given the limited resources of most jails.
7

See, e.g., Powell v. Texas, 392 U.S. 514, 528 (1968) (“It would be
tragic to return large numbers of helpless, sometimes dangerous
and frequently unsanitary inebriates to the streets of our cities
without even the opportunity to sober up adequately which a brief
jail term provides.”).

14
In sum, this is a burden too great for our cities
and jails to bear. The police and jailers deal with
intoxicated persons every day. And, while it is the job
of the courts to ensure the constitutional rights of
detainees are not violated, the Fifth Circuit went too
far. Instead of ensuring that constitutional rights are
upheld, the Fifth Circuit crossed the line into managing
detention facilities. As this Court explained long ago,
that is not the job of the Judicial Branch.
CONCLUSION
This Court should grant the Petition for Writ of
Certiorari to confirm the proper analysis for conditions
of confinement claims and bring the Fifth Circuit into
compliance with decades of precedent and other
Circuits. By addressing the panel majority’s flawed and
incomplete analysis, this Court can clarify the standard
for conditions of confinement claims, which in turn will
protect governmental entities from unwarranted
litigation.
Respectfully submitted,
G. Todd Butler
Counsel of Record
Mallory K. Bland
PHELPS DUNBAR LLP
4270 I-55 North
Jackson, MS 39211-6391
(601) 352-2300
todd.butler@phelps.com
Counsel for Amici Curiae

